<html>
<title> - HEARING ON COMMITTEE FUNDING FOR THE 111TH CONGRESS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
          HEARING ON COMMITTEE FUNDING FOR THE 111TH CONGRESS 

=======================================================================

                                HEARING

                               before the

                   COMMITTEE ON HOUSE ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

               HELD IN WASHINGTON, DC, FEBRUARY 11, 2009

                               __________

      Printed for the use of the Committee on House Administration


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

51-250 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001 




















                   COMMITTEE ON HOUSE ADMINISTRATION

                ROBERT A. BRADY, Pennsylvania, Chairman
ZOE LOFGREN, California              DANIEL E. LUNGREN, California
  Vice-Chairwoman                      Ranking Minority Member
MICHAEL E. CAPUANO, Massachusetts    KEVIN McCARTHY, California
CHARLES A. GONZALEZ, Texas           GREGG HARPER, Mississippi
SUSAN A. DAVIS, California
ARTUR DAVIS, Alabama

                           Professional Staff

                 S. Elizabeth Birnbaum, Staff Director
               Victor Arnold-Bik, Minority Staff Director


        COMMITTEE FUNDING HEARING FOR THE 111TH CONGRESS (CONT.)

                              ----------                              


                      WEDNESDAY, FEBRUARY 25, 2009

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 1:00 p.m., in Room 
1310, Longworth House Office Building, Hon. Robert A. Brady 
[chairman of the committee] presiding.
    Present: Representatives Brady, Lofgren, Gonzalez, Lungren, 
and Harper.
    Staff Present: Liz Birnbaum, Staff Director; Jamie Fleet, 
Deputy Staff Director; Charles Howell, Chief Counsel; Matt 
Pinkus, Professional Staff/Parliamentarian; Kyle Anderson, 
Press Director; Kristin McCowan, Chief Legislative Clerk; Brian 
McCue, Professional Staff; Gregory Abbot, Policy Analyst; 
Victor Arnold-Bik, Minority Staff Director; Peter Schalestock, 
Minority Counsel; and Karin Moore, Minority Legislative 
Counsel.
    The Chairman. I would like to call the Committee on House 
Administration to order.
    And I would also like to welcome you back to round two of 
our committee funding hearings. Today we will hear from our 
colleagues on Energy and Commerce, Ways and Means Committee, 
and the Rules Committee. This afternoon, we will follow the 
exact format as we had in the hearings last week, and hopefully 
we will be out of here relatively quickly.
    I would like to recognize my friend and ranking member, Mr. 
Lungren, for any opening remarks or statements.
    Mr. Lungren. Thank you very much, Mr. Chairman.
    I thought that the first day of hearings went well. I 
presume this will as well. And I thank you for the spirit of 
cooperation and bipartisanship. We have approached this and the 
commitment to the one-third/two-thirds in terms of funding.
    And I, too, hope that this will be an expeditious 
proceeding today.
    The Chairman. Thank you.
    I would like to welcome Chairman Waxman and Ranking Member 
Barton, and ask you to join us up on the table.
    And I am also now willingly going to relinquish my Chair to 
Mr. Gonzalez, who is a member of your committee, and I hope it 
is worthwhile, and I hope he gets even with you for how you 
have been treating him over the last couple of years.
    I would give the Chair to Mr. Gonzalez.
    Mr. Gonzalez [presiding]. Thank you very much, Mr. 
Chairman, for giving me the opportunity to welcome the esteemed 
chairman and ranking member of Energy and Commerce, on which I 
have the great privilege of serving, and just have such great 
admiration for both Mr. Waxman and Mr. Barton, my fellow Texan.
    I believe that the chairman and the ranking member will be 
given 5 minutes to make their presentation, and then, of 
course, if we have any questions, follow up, and more 
information.
    So, with that, I would recognize Henry Waxman, who is the 
Chairman of Energy and Commerce.

    STATEMENT OF THE HON. HENRY WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you, Mr. Chairman, and Mr. Chairman, and 
my fellow Californian.
    I want to thank you for this opportunity to testify on the 
Committee on Energy and Commerce's budget proposal for the 
111th Congress. And I am pleased to be here with the ranking 
member of our committee, Mr. Barton.
    During his tenure as chairman of the committee, Mr. Barton 
provided the minority with one-third of the committee 
resources, an approach that Mr. Dingell followed in the last 
Congress. And as the new Chair of the committee, I also intend 
to continue this approach to allocating resources for the 
minority.
    As we begin the 111th Congress the Energy and Commerce 
Committee faces a tremendous work load. Three of the top 
priorities of the new Obama administration and the American 
public are in the jurisdiction of our committee: health care 
reform; climate change legislation; and energy independence. 
While each of these issues alone requires significant attention 
and resources, the committee will be undertaking them 
simultaneously.
    Beyond these key matters, the committee will also be 
looking at food-safety reform; comprehensive FDA reform; 
tobacco legislation; telecommunications reforms; chemical 
security; cyber security; generic drug reform; as well as the 
reauthorization of the Toxic Substances Control Act, National 
Highway Transportation Safety Act, and the Federal Trade 
Commission.
    We have already been working at a fast pace. In this first 
few weeks of this Congress, the committee completed a marathon 
markup of the economic recovery bill; played a lead role in 
enactment of legislation to expand comprehensive health care 
for millions of children; and spearheaded the development of 
legislation to postpone the transition to digital television 
until June 12th, 2009.
    We also launched what will be a series of hearings to 
examine issues relating to climate change policy and to conduct 
an oversight hearing to examine food-safety issues raised by 
the recent outbreak of salmonella in peanut products.
    To accomplish our agenda, the Committee needs to add new 
staff, including a senior Medicare expert, a senior motor 
vehicles expert, a staff member to represent the chairman 
emeritus, and additional staff for the subcommittees that will 
play leading roles in advancing legislation. The committee has 
also encouraged transition costs resulting from a change in the 
committee chairmanship. These costs include compensating policy 
and administrative staff serving the committee on a 
transitional basis.
    As a result, the committee is requesting an 11.4 percent 
increase in funding for 2009 over 2008. Of this amount, 4.7 
percent is for cost-of-living increases for staff salaries and 
inflation increases for equipment, supplies, and other 
expenses. The remaining 6.7 percent is necessary for the 
committee to meet its increased work load.
    In its proposed budget for 2010, the committee is 
requesting a 10 percent increase over the proposed 2009 budget. 
This increase reflects equipment purchases that will promote 
efficiency by updating the committee computer system and 
telecommuting capabilities that will allow us to help close a 
large pay gap between our staff salaries and comparable 
salaries in the executive branch.
    We are trying to be as economical as possible in this 
budget request. The committee is not requesting any increase in 
funding for travel or equipment from the 110th Congress budget. 
But to enable the committee to fulfill its legislative and 
oversight responsibilities, we will need more resources.
    Once again, I would like to thank you for this opportunity 
to testify before the committee. I hope you will look favorably 
upon our request, and we look forward to working with you in 
the 111th Congress.
    [The statement of Mr. Waxman follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Gonzalez. Thank you very much, Mr. Chairman.
    And Ranking Member, Mr. Barton from the great State of 
Texas.

STATEMENT OF THE HON. JOE BARTON, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF TEXAS

    Mr. Barton. Thank you, Mr. Chairman.
    And thank you, Mr. Chairman, Mr. Lungren, and Mr. Harper.
    I would add one item to Chairman Waxman's agenda. That is 
the reauthorization of the National Institute of Health. It is 
currently operating under a 3-year authorization which expires 
this year, and I would hope that our chairman would put that on 
his agenda, too, since we substantially increased the budget at 
NIH in the stimulus package that passed last week.
    I can go one of three ways on this year's budget request 
for the Energy and Commerce Committee: I could support a budget 
freeze in which we make do with the same resources we had last 
year, which in the case of the Republican budget for the 
committee would be $3.4 million; I could support an adjustment 
for inflation, which my staff tells me is 1.8 percent; or given 
the increased work load in the agenda that Chairman Waxman has 
just outlined, I could support a slightly larger increase in 
the pure inflationary adjustment of 1.8 percent so long as that 
increase, the minority gets one-third of the resources, which 
Chairman Waxman has just indicated he supports and which, in 
your opening statements, the chairman and ranking member of 
this committee said that they support also.
    What I cannot do, with all due respect, is support the 
entire increase that Chairman Waxman has just outlined of 11.4 
percent this year and 10 percent next year. My math says that 
is a 21.4 percent increase. Given the shape our economy is in, 
I don't think that Congress could hold its head up with that 
kind of an increase.
    Having said that, I understand a new chairman's need for 
setting an aggressive agenda, and I respect Chairman Waxman for 
his willingness to have a proactive committee. Hopefully, we 
can be as proactive with less money and be more effective in 
doing that.
    With that, I would yield back.
    Mr. Gonzalez. Thank you very much.
    And the Chair is going to recognize himself for the first 
question.
    That is, Mr. Waxman, obviously the legislative branch and 
the House of Representatives has its agenda. But last night, we 
did listen to the President. And, if I recall, he highlighted 
basically three areas that he will be concentrating on, and I 
think you pointed that out: health, energy, and education. 
Health and energy will be primarily in the jurisdiction of your 
committee, is that correct?
    Mr. Waxman. That is right.
    Mr. Gonzalez. So even if Congress didn't have that focus, 
even if Congress wasn't going to expend all its attention on 
two out of those three, it's coming, and it's coming from the 
White House, and it will end up in your committee.
    Mr. Waxman. That is correct, and he also mentioned he wants 
us to deal with the carbon emissions problem, global warming, 
climate change. We are working on all three of those issues. 
They are very high priorities for this administration. And we 
are working on them at the same time, so we need the resources 
to do our job.
    Mr. Gonzalez. You also indicated that some of the 
additional costs in the new budget could be attributed to 
transition costs. If you can try to explain that a little bit 
to the members of the committee, and further, is there a 
component for deferred equipment purchases?
    Mr. Waxman. We had the transition costs because I am a new 
chairman, and having come from the House Oversight Committee, 
some of our staff will be moving over. They have stayed on the 
payroll of the House Oversight Committee. Some of the people on 
the Energy and Commerce Committee we are going to keep. But 
those who are going to leave, we didn't want to drop them from 
the payroll on January 1. We didn't think that was a fair thing 
to do. So we do have those transition costs.
    I think that the equipment issue is one that we need to 
work on, and we are trying to hold down the cost, but we have 
to be able to have the ability to do the telecommuting and all 
of the technical things that make a committee viable and 
efficient.
    Mr. Gonzalez. Thank you.
    Mr. Barton.
    Mr. Barton. I am sorry?
    Mr. Gonzalez. If you have any remarks based on the 
questions that I posed to Chairman Waxman on the agenda being 
driven pretty much by the White House, and it will be visiting 
us, whether we would welcome it or not. And most of it falls 
within the jurisdiction of the committee, and further 
transition costs and what might be deferred equipment 
purchases.
    Mr. Barton. Well, I would acknowledge that on the majority 
side, there are transition costs. And I certainly commend 
Chairman Waxman for trying to alleviate some of the suffering 
of the staff relocation. I think that is a positive thing.
    My comment on the agenda, though, is, I am going to quote 
something that Ginger Rogers said when somebody asked her to 
comment on Fred Astaire as a dance partner and how accomplished 
he was. Her retort was, I do everything he does except 
backwards in high heels. Well, the minority does everything the 
majority does, except we do it with a third of the staff and on 
most days less notice because of the way the system works. So 
whatever the agenda is, we will do our best to respond to Mr. 
Waxman and President Obama, but we will do it backwards in high 
heels and try to be just as good.
    Mr. Waxman. Mr. Chairman.
    Mr. Gonzalez. Sure. Mr. Waxman.
    Mr. Waxman. I want to add to your question about the 
equipment budget. We are asking for no increase in the 
equipment budget for 2009. We will for 2010 because we will 
need an update on the equipment by then. But we are not asking 
for an increase for this year.
    Mr. Gonzalez. Thank you very much.
    And the Chair is going to recognize the ranking member, Mr. 
Lungren.
    Mr. Lungren. Thank you very much.
    Obviously, we are dealing with a 2-year request here for 
the next Congress. And one of the reasons I bring that up is 
that we have asked the other chairmen and ranking members 
whether they would actively work with us in coming back after 
the first year so we can review where we are after a year. 
These are a significant increase in requests that have been 
made and probably will ultimately result, and in a matter of 
just fiscal prudence, it just seems to be a good idea to have 
committees come back to us, we look at what happened with the 
requests that were made and where we are going into the next 
year.
    Could we have that commitment of cooperation from both of 
you?
    Mr. Waxman. Well, certainly we want to cooperate with the 
committee and do whatever you think is necessary to make sure 
that we both do our jobs.
    Mr. Lungren. Sure.
    I notice, in all the requests that we have, the largest 
single budgets of all the committees in the Congress are, 
first, Energy and Commerce; the combined request for the 111th 
Congress would be just shy of $25 million. And the second 
largest is Oversight and Government Reform at just shy of $24 
million.
    And the math that we have, Mr. Barton, shows that the 2-
year request over the previous 2-year request amounts to about 
an 18.7 percent increase. That is one of the largest increases 
of anybody that has come before us.
    And I guess the question is, Mr. Waxman, could you do what 
you have to do with less?
    Mr. Waxman. I think we would be unable to do the things 
that we need to do with all these major issues simultaneously 
being considered by our committee. So I think our work product 
would be adversely affected. These are the kinds of issues that 
we need to do right, not just do a job on and get a bill out. 
We have got to try to get, hopefully, a bipartisan consensus; 
make sure the policy makes sense; and we need to have the 
experts who can help us accomplish those goals.
    Mr. Lungren. If I could forecast that there would be a 
bipartisan consensus, I would give you this money and more. I 
would hope we might be able to get a bipartisan consensus on 
this.
    All right, it is just tough for us in this environment. I 
mean, I believe that the Congress of the United States has an 
obligation to be the oversight people over the executive 
branch. And I have been one of those who has criticized both 
the Democrat and Republican Congresses for not doing the job.
    So I would be derelict in my duty if I suggested that you 
ought not to do oversight. It is just the question I have got 
to ask is whether an 18.7 percent increase in the current 
economic environment; while the President did outline all those 
things he said last night, I do recall him telling us that we 
are not supposed to put a debt on our children or 
grandchildren. I am old enough, as you know, Mr. Waxman, to 
have grandchildren now, and it has become a reality to me.
    I loved what the President had to say. I just hope that his 
rhetoric matches up to his actions, and I hope our actions 
match up to that rhetoric. We are going to have to answer to 
our constituents about the budgets that we have, and 18.7 
percent is quite a bit more than inflation or anything like 
that.
    Thank you very much, Mr. Chairman.
    Mr. Gonzalez. Thank you.
    The Chair will recognize the chairman, Mr. Brady, for any 
questions.
    The Chairman. No questions.
    Mr. Gonzalez. Mr. Harper.
    Mr. Harper. Thank you.
    Mr. Waxman, how are you?
    It is an honor to get to see both of you here.
    And I have a couple of questions. Listening to the 
President's speech last night, if he said it, I apologize, I 
missed it, but was there anything about nuclear energy? I don't 
remember it discussed in his speech last night. Is that 
something that you are pursuing favorably as a committee or 
discounting?
    Mr. Waxman. As we look at our energy needs, especially the 
goal of becoming more independent from importing our energy 
from places that do not wish us well, I think we have to look 
at a whole portfolio of sources. And I cannot imagine that we 
are going to meet our energy needs in this country without 
nuclear energy. So I see that as part of the overall sources to 
deal with our growing needs in this country, and especially as 
we want to be more independent.
    Mr. Harper. One of the other things that the President 
discussed, Mr. Chairman, was that we are importing a record 
level of oil from foreign countries and also that we are paying 
a price for our dependence upon oil. If those are concerns, are 
we moving as a committee, or do you anticipate moving as a 
committee, towards additional exploration to recover our own 
natural resources, whether it be at ANWR, or additional 
drilling for natural gas offshore? Are those things we are just 
abandoning, or are we going to pursue those so that that is a 
method as we pursue these other ideas to decrease that 
dependence upon foreign oil?
    Mr. Waxman. The question of drilling at ANWR or offshore is 
not really within our committee's jurisdiction; it is not the 
Natural Resources Committee. But what we need to do, in my 
view, is to provide the incentives to look for alternative 
energy sources, to use our energy resources that we have more 
efficiently, and try to put in place the incentives for the 
private sector to develop that new technology, some of which we 
have and some of which we are close to getting, so that we can 
become more energy independent. It is a national security 
issue.
    We need to provide more jobs. That will be, I think, 
promoted. And then we need to deal with the carbon emissions 
that are causing the threats of global warming, which may be 
the biggest environmental challenge that any of us have ever 
imagined.
    Mr. Harper. Well, Mr. Chairman, I know though that in my 
district, in my State, I don't think that the small businesses 
and the students and people that are of modest means or seniors 
can endure another $4-a-gallon gas price problem. So it may 
take years as we develop alternative means of energy and 
sources. And if we don't explore those further to get the 
fossil fuel that is available as a bridge even, then we are 
really hurting our small businesses. So I would hope that that 
would be something that we would look at.
    And one last comment I would have, Mr. Chairman, is that I 
know that, as the President stated, as your committee stated, 
as you look at global warming issues, and we tried to look at 
less spending or not growing at this rate, is it possible to 
shift any of the global warming work that your committee might 
be required to do to the Select Committee on Energy 
Independence and Global Warming? I know they don't do 
legislative work, I understand, but is there not stuff that 
could be shifted to them that you can draw from that reduces 
the need for additional employees?
    Mr. Waxman. Well, we want to learn from their series of 
hearings and any reports that they produce as a result of it. 
We are going to be talking closely to them. But we, as a 
legislative committee, have to be the ones on top of the issue. 
We are going to learn from the private sector, the public 
sector; or anyone who has views, we want to take them into 
consideration. But we ultimately have to decide the 
legislation.
    Mr. Harper. Thank you, Mr. Chair.
    Mr. Lungren. Will the gentleman yield?
    On your time, would you mind if I asked Mr. Barton a 
question?
    Mr. Barton, you suggested three scenarios that you could 
support. Could you give us some guidance as to where you think 
we ought to end up in terms of an increase above just simple 
inflation?
    Mr. Barton. Well, again, I understand Chairman Waxman's 
desire to beef up the staff, and that is understandable as a 
new chairman.
    But my guess is, we will get just as much work done whether 
we have any increase at all, knowing how aggressive and 
effective Mr. Waxman is. So if he wants a few more staff 
members, I respect that. We have already established that, if 
he gets two, I get one. And so my job will be to make sure my 
one can do what his two do.
    I don't know what the other committees are asking, but I 
would think that this committee is probably going to end up at 
inflation plus a couple of percent, something like that. And I 
could support that. But I could also support--a budget freeze 
would not be the end of the world for this committee or for the 
Congress. That would send the right signal to the American 
people that, as they tighten their belts, the Congress is going 
to tighten its belt also.
    Mr. Gonzalez. Thank you very much, Mr. Harper.
    And Mr. Lungren, we have been joined by the committee 
member, Ms. Lofgren.
    And if you have any questions.
    Ms. Lofgren. I do not.
    Mr. Gonzalez. No questions.
    Mr. Waxman, Mr. Barton, thank you very much.
    Mr. Barton. Could I just comment on something that was not 
asked me but was asked Mr. Waxman about this climate change 
committee?
    I would hope you all would abolish it. Whatever needs to be 
done, between Mr. Waxman's troops and my scalawag band of 
troops, we can get it done. We don't need the Select Committee.
    To quote former Chairman Dingell, it is as useless as 
feathers on a fish.
    Mr. Gonzalez. Thank you very much, Mr. Barton, Mr. Waxman.
    The Chairman [presiding]. Good afternoon, Chairman Rangel, 
and Ranking Member Camp. Thank you for coming in front of the 
House Administration Committee today. We look forward to your 
comments and your statement.
    I would like to recognize Chairman Rangel.

 STATEMENT OF THE HON. CHARLES B. RANGEL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Rangel. Mr. Chairman, members, thank you for your 
patience with us.
    We come here, Mr. Camp and I, with some degree of 
unanimity. We always have had no problem in the split of the 
allocation, one-third/two-thirds. We are proposing a 5 percent 
increase from 2008. And for 2010, we propose a 5 percent 
increase from 2009. The total is an increase of approximately 
9.2 percent over the 110th Congress.
    We had suffered a tremendous cut in the 104th Congress, 
with a funding cut of about 37 percent and the largest number 
of personnel in recent history, 51 percent, for a committee 
that still functioned. Considering all of this, we intend to 
add three additional staff in view of the President's mandate 
of social security, tax reform, climate change, family 
security, and especially health, which is coming up.
    We have accounted for travel, staff increases, and we hope 
that you would favorably consider the request of our 
distinguished committee.
    And thank you, again, for your patience.
    [The statement of Mr. Rangel follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Chairman.
    Ranking Member Camp.

 STATEMENT OF THE HON. DAVE CAMP, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MICHIGAN

    Mr. Camp. Thank you, Mr. Chairman, and Ranking Member 
Lungren, and other members of the committee.
    I appreciate having the opportunity to appear before you 
and with Chairman Rangel in support of our budget proposal for 
the 111th Congress.
    And I just wanted to mention, 2 weeks ago, as we neared 
conclusion on the work on the President's stimulus bill, 
Chairman Rangel and I were forced to postpone our testimony 
because of the scheduling meeting of the conference. And I want 
to offer my thanks and appreciation to the committee for 
rescheduling our appearance here.
    I also want to express my appreciation to Chairman Rangel 
for working with me and my staff. As he developed the Ways and 
Means budget request, we were consulted in the preparation of 
the budget proposal. And as he mentioned, under this budget 
proposal, the minority has full control of one-third of the 
budget and resources. And we will need these resources.
    I think the chairman will readily agree that, as difficult 
a challenge as the stimulus bill was, the Ways and Means 
Committee will play an even more active role in many other 
high-profile issues in the 111th Congress. A few of the major 
bills include tax reform, health reform, climate change. And 
so, accordingly, I support the committee's budget proposal. An 
increase in our current budget will provide the additional 
resources we need to meet the challenges of the 111th Congress. 
It is consistent with the requested increases in the past 
several Congresses. And I should note that the budget request 
was approved by our committee unanimously on February 11th.
    And I want to thank you for the opportunity to be here, and 
I would be pleased to answer any questions you might have.
    The Chairman. Thank you.
    And I don't know why our bells aren't going off in this 
room or our lights, but I understand there is a vote on now, 
and we have 12 minutes left. So rather than bring you back, I 
would ask our committee to be rather short in any questions 
they ask and we can then not miss the vote.
    So, with that, Ranking Member Mr. Lungren.
    Mr. Lungren. Thank you very much, Mr. Chairman.
    I see the 111th Congressional request from your committee 
is for $20,789,331.46. You are the only ones that have actually 
got it to the penny. So I presume that all of it is divided 
one-third/two-thirds in terms of staff and other expenditures.
    Let me ask you this, the same thing we have asked other 
committees. For a number of years, committees came before this 
committee for a 1-year authorization. Now we do it by Congress. 
But we thought it might be good to have committees return to us 
after 1 year for us to review what has happened, the 
expenditures you had, to see how that actually has set up with 
respect to the intentions you had when you started.
    I would hope that both of you would agree to do that with 
us.
    Mr. Rangel. We agree if you decide that is the way you want 
to proceed. It doesn't make sense to be able to try to plan for 
1 year. It seems that 2 years is short enough.
    Mr. Lungren. No, this is just to come back after a year for 
us to take a look and make sure how things are going after we 
do the 2-year authorization.
    Mr. Rangel. Oh, sure. You can come back every 6 months, 
whatever you think is good.
    Mr. Lungren. No, no, no, we don't want to see you that 
much, Charlie. I appreciate that.
    Mr. Rangel. We are so proud of our staff. We are proud of 
the way we work together. And you may be able to make some 
observations and recommendations on how we could improve what 
we are doing.
    Mr. Camp. Absolutely, we would be happy to cooperate in any 
way that the committee deems.
    Mr. Lungren. I have a whole list of questions, but in 
respect to the chairman's request, I would refrain from asking 
them at this point in time.
    Mr. Rangel. I will meet you on the floor.
    The Chairman. Ms. Lofgren.
    Ms. Lofgren. Given that votes have been called, the request 
is unanimous and bipartisan, and the task before you is 
enormous, I will pass on additional questions.
    The Chairman. Mr. Harper.
    Mr. Harper. No questions.
    The Chairman. We thank you very much and appreciate you 
appearing in front of us and look forward to seeing you again 
and working along with you and thank you for the job that you 
do.
    Mr. Rangel. Thanks again for your patience with us.
    The Chairman. We will recess now. We will come back with 
one more committee, which is Rules, the last committee to come 
back.
    Thank you.
    [Recess.]
    The Chairman. Good afternoon, and thank you for coming 
today.
    We noted you were busy having another hearing pending right 
now to get us a rule for tomorrow, and we appreciate it and 
welcome you here today.
    Chairperson Slaughter and Ranking Member Dreier, thank you. 
And, again, we are interested in your statement and in your 
comments.

  STATEMENT OF THE HON. LOUISE SLAUGHTER, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Ms. Slaughter. Thank you, Mr. Chairman, Ranking Member 
Lungren.
    We thank you for the opportunity to appear before the 
Committee on House Administration in support of the 111th 
Congress funding request for the Committee on Rules.
    As you know, the Committee on Rules is responsible for 
setting the parameters of debate for specific pieces of 
legislation. It has the unique role of considering the vast 
majority of complex legislative initiatives before they come to 
the House floor. Furthermore, the committee maintains 
jurisdiction over many other issues of critical importance to 
the ongoing operations of the House, everything from the 
opening day's rules package to ensuring the ability of the 
House to function in times of crisis.
    In the 110th Congress, the Rules Committee meetings 
increased by 22 percent over the 109th Congress. And the 111th 
Congress has already witnessed an increase in activity due to 
the dire economic environment affecting the country. In 
January, which is normally a slower legislative period in the 
House, the Rules Committee held its organizational meeting on 
the second day of the 111th Congress in anticipation of the 
upcoming legislative schedule. And during that month, the Rules 
Committee provided rules providing for the consideration of 
such significant legislation as TARP, SCHIP, and economic 
recovery.
    We strive to continue to be fully prepared to move an 
ambitious legislative agenda to the House floor during the 
111th Congress. Given the current economic crisis, our 
committee is committed to doing more with less. The budget we 
request today asks for a very prudent annual increase of 1.8 
percent from the prior year's budget level. It is a budget that 
will allow us to fund the daily operations of the committee 
while still investing in ongoing efforts to serve the House 
Membership and the public.
    The modest request reflects an actual increase in dollars 
per year of less than $65,000. In order to keep the overall 
budget request prudent and still meet the pressing demands of 
an ambitious legislative schedule, the committee reallocated 
funds among accounts. This budget request includes a modest 
increase in personnel funds necessary to maintain our work 
output.
    In addition, our budget request includes a continued 
investment in modernizing our technology. These efforts have 
had success thus far, though we still have more to do. And in 
this Congress, we expect to move forward into the final phases 
of development of our internal Rules database, now renamed the 
Committee on Rules Electronic Database, or CORE.
    Mr. Dreier was a most innovative Chair and he developed a 
Rules amendment tracking system that we have expanded. It now 
encompasses nearly the entire Rules Committee process, 
including tracking amendments, recording votes in our hearings, 
generating documents for distribution to the committee and for 
filing on the floor.
    Still, we require sustained investment in this essential 
software in order to further integrate CORE into our committee 
process. The budget reflects the committee's strong desire to 
shift to a more efficient paperless format, as well as to 
modernize our technology and public outreach efforts. In the 
next iteration of CORE, we will make additional improvements to 
further integrate this program with technologies that exist 
within the Office of the Clerk and GPO, and we will take on the 
task of integrating our internal data with our public Web site.
    Our proposed budget continues the Rules Committee's 
tradition of giving the minority one-third of the total staff 
slots allocated to us, along with control over one-third of the 
committee salary funds. The other categories represent joint 
funding. We work with the minority to ensure that the necessary 
resources are made available to them.
    In conclusion, I believe this budget carefully and 
responsibly funds priority accounts while reallocating money to 
more properly reflect the demands on our committee's resources. 
Although we would have preferred a greater investment in the 
Rules Committee to help us accomplish our goals, we have chosen 
to come before you today to request a modest budget that 
reflects our commitment to be good stewards of the taxpayers' 
money.
    Thank you for considering our request, and I look forward 
to answering any questions you may have.
    [The statement of Ms. Slaughter follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Madam Chairperson.
    Ranking Member Dreier.

    STATEMENT OF THE HON. DAVID DREIER, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Dreier. Thank you very much, Mr. Chairman, and Mr. 
Lungren.
    It is great to be here. And thanks to both of you for your 
tremendous patience in dealing with all of our colleagues who 
have been coming before you. I know we were scheduled to be 
here, I guess, was it 2 weeks ago?
    Ms. Slaughter. Last week I think.
    Mr. Dreier. Last week I was in California. I wasn't going 
to be here last week at all.
    But I will say that we were scheduled to be here a couple 
of weeks ago, so you obviously have been going through a 
protracted process, and we appreciate very much your patience 
and your service.
    I am here to support the recommendation and proposal 
offered by Mrs. Slaughter, the distinguished Chair of our 
committee. She has outlined the responsibilities of the Rules 
Committee. We all know what those consist of.
    I do want to make a couple of comments. First, I think that 
we are right behind your committee at the level of our request, 
1.8 percent. I understand that you all are just a little bit 
below us. And we are not trying to get into a competition with 
you on this, but we are happy to be doing everything that we 
can to follow your lead for the reason that Mrs. Slaughter 
correctly stated; we need to set an example.
    The American people are hurting. The size and scope and 
reach of government is, from my perspective, way too big. And 
if we can set an example by trying to reduce spending, 
including in our level of funding for committees, I think it is 
a great example. Now, as I say that, I recognize that we have a 
very important constitutional responsibility, and we can't in 
any way abrogate that. And so we do need to have necessary 
resources.
    Mrs. Slaughter nicely referred to the fact that we have 
been able to set an example when it comes to transparency and 
disclosure when it comes to putting things online. It is 
interesting, we did everything that we could with the 
technological advances that existed at that time, but she is 
absolutely right in saying that building on that is important. 
Why? Primarily because, I mean, under Moore's Law, we continue 
to see tremendous improvements in technology. And I think that 
our ability to get the work of the Rules Committee before our 
colleagues and the American people is essential, and that is 
why building on this plan is an appropriate one.
    She mentioned the two-thirds/one-third split. And I will 
say that, while we have had a good working relationship on that 
and plan to continue it, my first choice would have been to 
have the majority completely comply with the campaign plank 
that they had that would give a full one-third to the minority 
as far as management there, which I know was a campaign issue 
for them. And I am sorry that that has not been able to fully 
be implemented.
    But I will say that we still, with the structure that we do 
have, work well. We have our two staff directors sitting right 
behind us now, and they work very closely together on a wide 
range of issues. As you all know, the Rules Committee can be 
the most partisan place of all. There is a ratio which I 
preferred greatly when I was in the majority over the one that 
I enjoy today in the minority, but that is the way it has been 
for a long period of time, and I recognize and understand our 
role and our responsibility there.
    So I thank you all, again, very much for your work and for 
your understanding and look forward to answering any questions 
you might have.
    Thank you, Mr. Chairman.
    [The statement of Mr. Dreier follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you.
    Mr. Lungren, do you have any questions?
    Mr. Lungren. I will just say that you have one of the most 
modest requests for an increase of any of the committees, and 
we do appreciate that, given everything we have had.
    Mr. Dreier. Is it in fact second only to yours?
    Mr. Lungren. No, actually it is, let us see, I think it is 
third, but actually, you are ahead of us.
    Mr. Dreier. Oh, somebody told me at one point that you 
were----
    Mr. Lungren. Well, this is for the 2-year period, because 
it is a 2-year request, so we thank you.
    Mr. Dreier. Can you tell us who is ahead of us?
    Mr. Lungren. Well, you really want to know, don't you?
    Budget is way ahead of you. Budget is way ahead of 
everybody. And then we have Intelligence, and then I think you 
folks are. Some of those who have some of the most important 
things to do here are being the most prudent.
    Ms. Slaughter. We are. We have a very heavy work load and I 
think are indispensable to the running of the House.
    Mr. Lungren. And I just noted in the material that you sent 
to us, it mentioned that the Committee on Rules was first 
established in 1789 on the second day of the First Congress.
    Ms. Slaughter. That is right.
    Mr. Lungren. Was it the first committee established?
    Ms. Slaughter. It is the oldest committee in the House.
    Mr. Dreier. Well, the Ways and Means Committee existed in 
the Continental Congress, and so you can say it was, yeah.
    Ms. Slaughter. But of the Congress, that was the first 
committee composed of a committee Chair.
    Mr. Lungren. I knew that we would find agreement here.
    Ms. Slaughter. We always do.
    Mr. Lungren. Well, one of the things we are asking is that, 
in the past, well, a number of years past, we used to give 
authorization for a single year. Now we do it for a full 
Congress. But one of the thoughts is that we ought to have 
committees come back to us after the first year just to report 
on how things are going, so we can see how the budget is 
actually expended and so forth, and we would hope that you 
would cooperate with us in that request.
    Ms. Slaughter. Indeed. Be happy to.
    Mr. Dreier. Let me say that I think that is a fantastic 
idea. And I believe what you all are doing here should be a 
model for the entire Federal Government. I believe that we 
should go to a 2-year, a 2-year cycle for the budget and do 
precisely what you said, Mr. Lungren, actually enhance 
oversight by virtue of doing that, allowing both the 
appropriators and authorizers to have a greater chance at that. 
So I think that the Administration Committee model should be 
implemented throughout the entire Federal Government with a 2-
year budget process.
    Mr. Lungren. Well, I thank you for that strong and 
enthusiastic endorsement of our ideas, and we appreciate your 
testimony.
    You know, Mr. Chairman, sometimes I think maybe we should 
grant them a larger increase in the budget if they could find 
some rooms in the Capitol to return to this committee. What do 
you think?
    Ms. Slaughter. If we did those rules, we would have more 
room in the Capitol. We are really cramped for space.
    The Chairman. Everybody is cramped for space.
    We thought we would get some new space now with the new 
Visitors Center, but it is not happening. But also I understand 
that some of the shops may be moving, so who knows? Maybe we 
could get some more space. It is cozy sometimes, like we can't 
even move back here without bumping into these lovely ladies, 
which is not a bad idea.
    Thank you so much. We appreciate you for your time.
    Ms. Slaughter. Thank you very much.
    [Whereupon, at 2:27 p.m., the committee was adjourned.]

</pre></body></html>
